Report No. D-2007-132         September 28, 2007




Army Use of and Controls Over the DoD Aviation
       Into-Plane Reimbursement Card
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig/audit/reports or contact the Secondary Reports
  Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
  General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                           ODIG-AUD (ATTN: Audit Suggestions)
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                                 Arlington, VA 22202-4704




Acronyms
AIR                   Aviation Into-Plane Reimbursement
AO                    Accountable Official
CPM                   Component Program Manager
DESC                  Defense Energy Support Center
GAO                   Government Accountability Office
GFC                   Government Fuel Card
MSC                   Multi Service Corporation
OSAA                  Operational Support Airlift Agency
RFC                   Regional Flight Center
                               INSPECTOR GENERAL

                              DEPARTMENT OF DEFENSE

                               400 ARMY NAVY DRIVE

                          ARLINGTON, VIRGINIA 22202-4704


                                                                     September 28, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Army Use of and Controls Over the DoD Aviation Into-Plane
         Reimbursement Card (Report No. D-2007-132)


       We are providing this report for review and comment. The Secretary of the
Army, and the Army, Office of the Deputy Chief of Staff for Logistics, G4, did not
respond to the draft report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Secretary of the Army, and the Army, Office of the Deputy Chief of
Staff for Logistics, G4, provide comments on the final report by November 5, 2007.

        If possible, pleasc send management comments in electronic format (Adobe
Acrobat file only) to Audros@dodig.osd.mil. Copies of the management comments must
contain the actual signature ofthc authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).                           .

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Thomas S. Bartoszek at (703) 604-9619 (DSN 664-9619) or Mr. Walter S.
Bohinski at (703) 604-8745 (DSN 664-8745). See Appendix I for the report distribution.
The team members are listed inside the back cover.

                             By direction of the Deputy Inspector General for Auditing:




                                AJ~~M-·
                                    Wanda A. Scott
                                    Assistant Inspector General
                                    Readiness and Operations Support
               Department of Defense Office of Inspector General
Report No. D-2007-132                                              September 28, 2007
  (Project No. D2006-D000LD-0177.000)

      Army Use of and Controls Over the DoD Aviation Into-Plane 

                       Reimbursement Card 


                                Executive Summary 


Who Should Read This Report and Why? Logistics personnel, policy makers, senior
managers, and users affiliated with the Aviation Into-plane Reimbursement Card
Program should read this report. This report evaluates the Army’s management and
oversight of the Aviation Into-plane Reimbursement Card and DoD transition to a new
support contractor in 2005.

Results. Army administration and oversight of 4,408 Aviation Into-plane Reimbursement
Cards need to be improved. Specifically, the Aviation Into-plane Reimbursement Card
database contains inaccurate and unreliable Army ownership information. In addition, at the
unit level, the process for accounting for Aviation Into-plane Reimbursement Cards,
verifying $171.4 million in Aviation Into-plane Reimbursement Card charges, and retaining
Aviation Into-plane Reimbursement Card receipts was inadequate. As a result, there is a
higher risk of Aviation Into-plane Reimbursement Card misuse and erroneous billings.

We recommend that the Secretary of the Army provide resources (personnel and funding)
to the Army, Office of the Deputy Chief of Staff for Logistics, G4, to oversee Army
participation in the DoD Aviation Into-plane Reimbursement Card Program. In addition,
we recommend that the Secretary incorporate interim guidance on roles and responsibilities
into Army Regulation 710-2 and include a record retention policy consistent with DoD
Financial Management Regulation; a requirement for accountable officials to maintain an
audit trail of charges they validated; and a requirement for managers of major commands
and installations to perform periodic reconciliations of Aviation Into-plane Reimbursement
Cards. Further, we recommend that the Army Deputy Chief of Staff for Logistics, G4,
designate and train officials at all Army major commands and installations that use the
Aviation Into-plane Reimbursement Cards to adequately oversee the program. Lastly, we
recommend that the Army Deputy Chief of Staff for Logistics, G4, reemphasize the
requirement for accountable officials to report when an aircraft is transferred or removed
from service or an Aviation Into-plane Reimbursement Card is lost, needs to be reassigned,
or needs to be terminated and to validate charges against receipt information each month.

See the Finding section of this report for detailed recommendations. The managers’
internal controls that we reviewed were not effective in that we identified a material
weakness in the Army’s process for accounting for Aviation Into-plane Reimbursement
Cards, verifying charges, and retaining documentation.

Management Comments. The draft report was issued on July 6, 2007. The Secretary of
the Army, and the Army, Office of the Deputy Chief of Staff for Logistics, G4, did not
respond to the draft report. We request that the Secretary of the Army, and the Army,
Office of the Deputy Chief of Staff for Logistics, G4, provide comments on the final
report by November 5, 2007.
Table of Contents 

Executive Summary                                                             i


Background                                                                    1


Objectives                                                                    3


Review of Internal Controls                                                   3


Other Matters of Interest                                                     3


Finding
     Army Administration and Oversight of Aviation Into-Plane 

         Reimbursement Cards and Charges                                      5


Appendixes
     A.   Scope and Methodology                                              17 

     B.   Prior Coverage                                                     20 

     C.   Guidance from the Program Management Office                        21 

     D.   Review of Transition between Aviation Into-Plane Reimbursement 

            Card Contractors                                                 22 

     E.   Aviation Into-Plane Reimbursement Card Transaction 

            and Payment Process                                              24 

     F    Transactions that AVCARD Processed                                 28 

     G    Transactions that MSC Processed                                    33 

     H.   Results of Review by Site                                          37 

     I.   Report Distribution                                                39 

Background 

           DoD Management of Aviation Fuel. Aviation fuel is an essential logistics
           component of the DoD capabilities to operate around the globe. To meet its
           mission efficiently and maintain financial integrity, DoD must have adequate
           operational and financial procedures that allow military pilots to acquire aviation
           fuel and support services from different locations within the Continental United
           States and around the world. DoD Directive 5101.8, “DoD Executive Agent
           (DoD EA) for Bulk Petroleum,” August 11, 2004, designated the Director,
           Defense Logistics Agency, as the DoD Executive Agent1 for Bulk Petroleum.2
           The Directive required the Executive Agent to execute supply chain management
           for all DoD bulk petroleum and to be responsible for bulk petroleum from the
           source of supply to the point of customer acceptance. In addition, the Executive
           Agent provides DoD with comprehensive energy solutions, negotiates fuel
           discounts, and awards various fuel supply and service contracts. In a
           November 1, 2004, memorandum, the Director, Defense Logistics Agency,
           redelegated the executive agent’s responsibilities to the Defense Energy Support
           Center (DESC).

           DoD Program Office. The Under Secretary of Defense (Comptroller) formed a
           DoD Charge Card Task Force in March 2002 that issued a report, “DoD Charge
           Card Task Force Final Report,” June 27, 2002. The report evaluated DoD charge
           card programs and offered 25 recommendations for improving them that included
           preparing DoD Directive 7400.aa, “Department of Defense (DoD) Charge Card
           Programs,” to assign responsibilities for managing charge card programs. DoD
           officials developed the Directive but it was not signed. However, in anticipation
           of DoD Directive being signed, the Director of DESC established the Government
           Fuel Card (GFC) Program Office by General Order No. 06-04, June 15, 2004.
           The GFC Program Office was responsible for overall program management
           including establishing and managing a process designed to assess all aspects of
           fuel charge card usage and payment, establishing and overseeing an organization
           structure, identifying the Military Departments’ program coordinators and
           Component managers, and establishing roles and responsibilities for cardholders
           and Military Departments’ fuel card managers. In addition, the GFC Program
           Office disseminated policy and training information, coordinated the enrollment
           of fuel charge card users and access to automated fuel systems, and issued
           instructions on how to use and manage the GFCs including the Aviation
           Into-plane Reimbursement (AIR) CardSM.3 See Appendix C for details on
           guidance that the Program Management Office published.



1
    An Executive Agent is the Head of a DoD Component to whom the Secretary of Defense or his Deputy
    has assigned specific responsibilities, functions, and authorities to provide defined levels of support for
    operational missions, or administrative or other designated activities that involve two or more DoD
    Components.
2
    Bulk Petroleum is delivered in volumes greater than 55 U.S. gallons using delivery modes such as tank
    trucks/cars, pipelines, coastal barges, hydrant systems, and ocean tankers.
3
    DESC has submitted an application to the DoD Trademark Office to register the name “AIR Card.”
    The (SM) is a trademark symbol for services.

                                                         1

           AIR CardSM. The AIR CardSM is a commercially accepted charge card that DoD,
           Federal agencies, and State and local law enforcement agencies use to purchase
           aviation fuel, fuel-related supplies, and ground support services worldwide.
           Examples of ground services include deicing, lavatory services, catering, towing,
           ramp fees, hangar rentals, and landing fees. The embossed card shows the aircraft
           tail number, the responsible branch or agency, and the AIR CardSM number. The
           AIR CardSM can be electronically swiped, mechanically imprinted, or hand-scribed
           onto a commercial delivery ticket. From October 2002 through May 2006, DoD
           Components used the AIR CardSM to purchase aviation fuel and ground services
           worth about $1.38 billion, of which the Army was responsible for $171.4 million in
           purchases. The Army purchased $166.7 million in fuel and $4.7 million in ground
           support services. From the program inception in January 1997, two contractors,
           AVCARD and Multi Service Corporation (MSC), were tasked to issue AIR CardsSM
           to military units and other Federal civilian agencies, provide computer system
           training, process AIR CardSM transactions that included paying suppliers and billing
           organizations, and maintain a database of information on AIR CardSM users. During
           the transition period from February 2005 through June 2006, DESC processed
           remaining transactions that AVCARD did not process before its contract ended.
           See Appendix D for a review of the transition between AIR CardSM contractors.

           Army AIR CardSM Program Management. Until March 2006, the Army
           Petroleum Center was the acting Component Program Manager (CPM) for the
           Army’s AIR CardSM Program. The CPM is responsible for administering Army fuel
           card programs, establishing fuel card policy and guidelines, and overseeing major
           Army commands’ processes for monitoring fuel card use. Army commands and
           their organizations must comply with policies and procedures and oversee
           operational control of the AIR CardsSM within their commands and organizations.
           In March 2006, CPM responsibilities for the AIR CardSM began transitioning from
           the Army Petroleum Center to the Army Deputy Chief of Staff for Logistics (G4).

           Use of the AIR CardSM and Billing Process. DESC established into-plane4 contract
           agreements with commercial fuel vendors worldwide who are required to accept the
           AIR CardSM for aviation fuel purchased at a contracted fuel rate. Aircrews must use
           the AIR CardSM to purchase aviation fuel at DESC into-plane contract locations, and
           can also use it to purchase aviation fuel from non-contracted vendors when necessary;
           however, there is not a negotiated fuel rate at these locations.

           An AIR CardSM transaction occurs when an aircraft lands at a commercial airport
           and requires fuel or ground service support. The aircrew presents the AIR CardSM to
           the supplier, who records the sale. The aircrew signs the purchase receipt and
           retains a copy of the signed receipt for the aircrew organization’s files. For fuel, the
           AIR CardSM contractor sends billing information to DESC, where personnel process
           the charge and authorize the Defense Finance and Accounting Service to pay the
           contract fuel provider directly or to pay the AIR CardSM contractor for non-contract
           fuel. For ground support services, the AIR CardSM contractor pays the merchant and
           then bills the organization that owns the serviced aircraft. See Appendix E for a
           detailed description and diagram of the AIR CardSM transaction and payment
           processes. See Appendixes F and G for a detailed list of Army charges for aviation
           fuel and ground services from October 2002 through May 2006.
4
    Into-plane refers to aviation fuels delivered into aircraft at commercial airports worldwide.

                                                         2

Objectives 

           Our overall audit objective was to evaluate whether the use of the AIR CardSM
           complied with regulations and whether the controls were effective over
           processing reimbursement card payments for transactions from October 2002 to
           May 2006. Specifically, we reviewed the effectiveness of the DESC transition
           from the previous contractor to the present one, the establishment of the GFC
           Program Management Office, and the effectiveness of Service controls over the
           use and accountability of AIR CardsSM. In addition, we reviewed the management
           control program as it related to the audit objectives. Because of Department of
           Defense Office of Inspector General personnel changes, we limited the scope of
           our review to include only the Army. This audit report is one in a series of
           planned reviews; future reports will cover the Air Force and Navy AIR CardSM
           programs. See Appendix B for prior coverage related to the objectives.

Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996,5 required DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of controls.

           We identified material internal control weaknesses for the Army as defined by
           DoD Instruction 5010.40. The Army CPM did not have adequate internal
           controls over the DoD AIR CardSM Program in that the CPM did not always
           oversee the major command and unit levels or the designated Army organizations
           that have a role in managing the AIR CardSM Program, provide necessary
           oversight to account for all AIR CardsSM issued, and analyze or periodically
           review AIR CardSM transactions. Recommendations 1.a., 1.b., 2.a., and 2.b., if
           implemented, will correct the material internal control weaknesses and lower the
           risk of incorrect charges and payments. A copy of the report will be provided to
           senior officials responsible for internal controls in the Army.

Other Matters of Interest
           DESC oversaw the transition of the AIR CardSM contract from AVCARD to MSC
           with a few problems: transactions arrived for processing after the AVCARD
           contract ended, MSC did not have a current database of AVCARD-issued
           AIR CardsSM, and MSC and DESC did not verify the AIR CardSM data file transfer
           process before MSC took over the contract.


5
    We performed our review of internal controls under the auspices of DoD Directive 5010.38,
    “Management Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management
    Control (MC) Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on
    April 3, 2006. DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was
    reissued on January 4, 2006.

                                                    3

DESC processed AIR CardSM transactions that AVCARD had not processed before
the end of the contract. DESC verified that AVCARD had not previously paid the
charges by comparing the merchant invoice with supporting documentation. We
reviewed the 209 AIR CardSM transition transactions that DESC processed from
February 2005 through June 2006. We compared the AIR CardSM transaction
documentation with an accounting database list of DESC-processed transactions.
Our review showed that DESC accurately processed most of the transactions with
only minor errors in data entry. We identified a $36,228 transaction that had been
processed and paid twice, once by AVCARD and once through DESC. We alerted
DESC in December 2006, and they have received a refund of the overpayment.

AVCARD did not provide the new contractor, MSC, a database list of AIR
CardSM users because AVCARD protested the award of the AIR CardSM contract
to MSC. DESC provided MSC with a database which, while outdated, enabled
MSC to issue new AIR CardsSM. As a result, Army organizations received AIR
CardsSM for aircraft that they no longer owned. We reviewed evidence that
indicated that some Army organizations that received AIR CardsSM based on the
old card data had returned the cards for cancellation.

DESC and MSC did not test the procedures for transferring the AIR CardSM data
files until the week after the MSC contract started. They identified no significant
problems and the unforeseen difficulties during the transition from AVCARD to
MSC, do not seem to have caused significant effects. See Appendix D for the
review of the transition between AIR CardSM contractors.




                                     4

            Army Administration and Oversight of
            Aviation Into-Plane Reimbursement
            Cards and Charges
            Army administration and oversight of AIR CardsSM need to be improved.
            Specifically, the AIR CardSM database contains inaccurate and unreliable
            Army AIR CardSM ownership information. In addition, at the unit level,
            the process for accounting for AIR CardsSM, verifying AIR CardSM charges,
            and retaining AIR CardSM receipts was inadequate. Army administration
            of the program was inadequate because DoD and Army officials did not
            disseminate adequate guidance to the unit level, and the Army did not
            provide resources to oversee the program. As a result, there is a higher
            risk of AIR CardSM misuse and erroneous billings.

Criteria
     Office of Management and Budget Circular. The Office of Management and
     Budget Circular A-123 (the Circular), “Management Accountability and Control,”
     Appendix B, “Improving the Management of Government Charge Card
     Programs,” August 5, 2005, consolidated and updated Governmentwide
     requirements and guidance for the charge card program. The Circular requires
     management to establish an appropriate structure to carry out program
     responsibilities and establish controls that provide disbursing officers with
     reasonable assurance that vouchers are accurate prior to payment.

     DoD Regulation. DoD Regulation 7000.14-R, “Financial Management
     Regulation,” August, 2000 Volume 1, Chapter 9, identifies the National Archives
     and Records Administration as the governing authority for disposing of
     Government records. National Archives and Records Administration General
     Records Schedule 6, “Accountable Officers’ Accounts Records,” December 1998,
     states that hard copies of sales tickets for charge card purchases of gasoline
     should be destroyed after 3 years. The Financial Management Regulation allows
     DoD Components to issue supplemental guidance extending record retention
     requirements. DESC issued interim policy DESC P-8, “Government Fuel
     Card (GFC) Program Roles, Responsibilities and Accountability,”
     January 10, 2006, which directs AIR CardSM users to retain receipts for 6 years
     and 3 months.

     DoD Charge Card Guidebook. In February 2003, the Under Secretary of
     Defense (Comptroller) and the Under Secretary of Defense for Acquisition,
     Technology, and Logistics established an integrated product team for DoD
     Charge Cards to establish a common approach for card charges for the Services
     and Defense agencies. The integrated product team published the “DoD
     Government Charge Card Guidebook for Establishing and Managing Purchase,
     Travel, and Fuel Card Programs,” January 21, 2005, which requires AIR CardsSM
     to be assigned to specific aircraft and to stay with the assigned aircraft when the
     aircraft are transferred.


                                          5

    It is the responsibility of the transferring organization’s AIR CardSM accountable
    officials (AO) to provide the AIR CardSM contractor with billing and aircraft
    information so that the contractor can update the AIR CardSM database. Army
    organizations’ AOs are to determine whether all transactions are legal, proper,
    mission essential, and correct; monthly billing accounts are accurate; transaction
    documentation is the original; and informal compliance reviews are conducted.

    The contractor will continue to bill the previous organization for the AIR CardSM
    charges until the sending organization’s AO notifies the AIR CardSM contractor.
    The AO should also provide the CPM with the required information to cancel an
    AIR CardSM. The CPM will, in turn, notify the AIR CardSM contractor to cancel
    the card. The Army CPM, as the Service point of contact with DESC, is
    responsible for establishing a management structure for coordinating with agency
    program coordinators and interfacing with the card processor.

    Army Regulation. Army Regulation 710-2, “Inventory Management, Supply
    Policy Below the National Level,” July 8, 2005, outlines procedures and
    management controls for accounting for and controlling fuel cards. The
    regulation states, “on a monthly basis receipts should be matched to billed
    transactions to verify the validity of charges.” Also, Army organizations that use
    the AIR CardSM should apply through the Army Petroleum Center for access to the
    Fuels Automated System Enterprise Server (also known as the Purple Hub),
    where they can view and verify fuel transactions and avoid payment of
    questionable charges. Further, organizations are to notify the Army CPM when
    an AIR CardSM is lost or damaged or when an aircraft is removed permanently
    from service so the CPM can cancel the card. It is the responsibility of the CPM
    to review and verify all billing data including the DoD Activity Address Code,
    fund code, and accounting code before informing the AIR CardSM contractor of all
    additions, deletions, and changes in card ownership.

Accounting for AIR CardsSM
    The AIR CardSM database of MSC-managed, Army-owned AIR CardsSM contains
    inaccurate and unreliable card ownership information. We also identified aircraft
    with multiple AIR CardsSM, AIR CardsSM that were not destroyed after being
    cancelled, and AIR CardsSM that were missing.

    Accuracy of the AIR CardSM Database. The AIR CardSM contractor is
    responsible for maintaining a database of all issued AIR CardsSM. The database
    includes information such as the aircraft tail number, the aircraft model number,
    the accountable organization, the billable address, the point-of-contact
    information, and payment and billing history. The organization AO must submit
    any changes to the Army CPM, who transmits the requests to the AIR CardSM
    contractor, who then updates the AIR CardSM database. The contractor uses the
    card database to bill Army organizations for AIR CardSM charges. For billing, the
    database includes timestamps detailing the periods when customers assumed
    ownership of an aircraft. Timestamping allows the contractor to bill the correct
    Army organization.



                                         6

           The MSC-managed AIR CardSM database contained the information on
           4,408 active AIR CardsSM assigned to Army aircraft or organizations as of
           October 2, 2006. We visited Army organizations and identified 56 discrepancies
           between the listed owner of the AIR CardSM in the database and our observed
           results. In addition, we identified 68 active AIR CardsSM in the database for
           aircraft that the Army removed from inventory. Information on 116 cards had
           124 discrepancies between AIR CardSM and Army Aircraft ownership information.

                  Reconciling AIR CardsSM at Organizations Visited. We visited
           organizations at five Army sites, including the 228th Aviation Battalion, Dobbins
           Army Reserve Base, Georgia; the Operational Support Airlift Agency (OSAA)
           Regional Flight Center (RFC) at Fort Belvoir, Virginia; the 82nd Combat
           Aviation Brigade at Fort Bragg, North Carolina; the OSAA RFC at Fort Hood,
           Texas; and Fort Rucker, Alabama. The sites were assigned 607 AIR CardsSM.
           Table 1 shows the discrepancies between records and cards held.

                               Table 1. Discrepancies in AIR CardSM Database
                                             (as of October 2006)
                                                                                          AIR CardsSM
                                                           SM
                                               AIR Cards Assigned to                     Not Assigned to
                                                Organization Reviewed                 Organization Reviewed
                                                 Card Found,        Card Not
                                                   Aircraft       Found, Aircraft
                                     Total        Owned By          Owned By
                                     Cards        Different         Different         Card
                   Location         Assigned     Organization      Organization      Found         Other
              228th Aviation
              Battalion,                 5             0                 0             0              0
              Dobbins, ARB
              OSAA, Fort                 6             0                 0             0              0
              Belvoir
              82nd, Combat
              Aviation Brigade,         74             3                 2             3              5
              Fort Bragg
              OSAA, Fort Hood            2             0                 0             0              0
              Fort Rucker              520             0                43             0              0
                Total                  607             3                45             3              5

                   AIR CardsSM Assigned in the Database to Organizations Reviewed.
           We identified three AIR CardsSM in the database that were assigned to an
           organization we visited, but when we compared the cards with the inventory of
           active Army aircraft, it showed that another organization actually owned the
           aircraft. For example, the AIR CardsSM for three UH-60 Blackhawk helicopters
           were in the AIR CardSM database as being assigned to Fort Bragg; however, the
           Army aircraft inventory database,6 November 15, 2006, assigned the three
           helicopters to an organization at Hunter Army Airfield, Georgia. Additionally,

6
    The Army aircraft inventory database is a list of all Army aircraft by model and serial number to meet
    Army inventory tracking requirements. The Logistics Support Activity of the Army Materiel Command
    maintains the Army aircraft inventory database.

                                                      7

the Army had transferred 45 active AIR CardsSM and associated aircraft to a
different organization or had retired the aircraft from service, but the AIR CardSM
database showed the aircraft as being at the organization we visited. For example,
the AIR CardsSM for nine AH-64 Apache helicopters were in the AIR CardSM
database as assigned to Fort Rucker; however, aircraft transfer documentation
provided by Fort Rucker officials showed that the nine aircraft were at Camp
Eagle, Korea.

         AIR CardsSM Not Assigned in the Database to Organizations
Reviewed. We found three AIR CardsSM at Fort Bragg that the database did not
list as belonging to Fort Bragg. For example, we found one AIR CardSM for a
UH-60 Blackhawk helicopter that, according to the AIR CardSM database, belongs
to Fort Campbell, Kentucky.

Also, five aircraft at Fort Bragg, which the Army aircraft inventory database listed
as assigned to Fort Bragg, were not in the AIR CardSM database as belonging to
Fort Bragg. We did not find the AIR CardsSM for these aircraft at Fort Bragg, and
they were listed as assigned to locations other than Fort Bragg. For example, we
found one UH-60 helicopter at Fort Bragg although the AIR CardSM database
assigned the associated AIR CardSM to Fort Campbell.

The Army had not updated the AIR CardSM database to reflect the 56 aircraft
ownership changes. As a result of incorrect information for the AIR CardsSM, the
contractor mistakenly charged at least 34 transactions, totaling $4,552, to Army
organizations for AIR CardSM charges for 3 aircraft that the Army had transferred to
a different organization. When notified of these discrepancies, the Army CPM
began to take corrective actions and, as of June 27, 2007, had corrected 42 of the
56 discrepancies. Army officials stated they were researching the remaining
14 discrepancies. If the Army does not reemphasize the requirement to report
AIR CardSM and aircraft reassignments and does not take action to ensure the
reliability of the AIR CardSM database, there will continue to be a high risk of
erroneous billings for AIR CardSM charges.

         Canceling AIR CardsSM. An analysis of AIR CardsSM for aircraft that have
left active status since January 1, 2005, showed that 68 AIR CardsSM in the
AIR CardSM database were assigned to aircraft that had left the Army’s inventory of
active aircraft. Army officials stated that aircraft leave the active inventory for a
variety of reasons including retirement, sale to a foreign military, transfer to a local
law enforcement agency, use as a static display, or damage that renders it unusable.
We found no questionable transactions relating to AIR CardSM use after the date that
each aircraft left the active inventory. When notified, the Army CPM canceled the
cards. As of June 27, 2007, the Army had cancelled 53 of the 68 active AIR
CardsSM. Of the 15 remaining active cards, Army officials were researching
13 cards and had reasons for not canceling 2 AIR CardsSM.

Aircraft with Multiple Active AIR CardsSM. A query of active AIR CardsSM
assigned to aircraft found nine aircraft, each with two different AIR CardsSM. For
example, an AH-64 Apache helicopter assigned to Fort Hood had two active AIR
CardsSM assigned in the AIR CardSM database. In this instance, the aircraft was not
listed in the active Army inventory. The DoD Government Charge Card
Guidebook states that AIR CardsSM generally are limited to one per aircraft, and

                                      8

           exceptions require Component-level approval; however, the Army CPM stated
           that he had not approved any aircraft to have multiple AIR CardsSM. As of
           June 27, 2007, the Army CPM cancelled eight of the nine duplicate AIR CardsSM.
           Army officials stated they were further researching the remaining duplicate AIR
           CardSM.

           Destruction of Cancelled AIR CardsSM. During our site visit to Fort Rucker,
           Alabama, we inventoried one AIR CardSM that was not listed as assigned to the
           organization reviewed. Follow-up research determined that although the Army
           had cancelled the AIR CardSM in the AIR CardSM database, the organization did
           not destroy the card. As of March 28, 2007, Fort Rucker officials had destroyed
           the card.

           Missing AIR CardsSM. During our site visit to Fort Bragg, officials could not
           provide seven AIR CardsSM that were listed as assigned to organizations reviewed.
           We considered these AIR CardsSM lost. We found no indication of unauthorized
           transactions for the seven AIR CardsSM. As of June 27, 2007, Army officials stated
           that they had cancelled five AIR CardsSM and were still researching two cards.

           Army Regulation 710-2 requires Army organizations to notify the Army CPM
           when an AIR CardSM is lost, damaged, or removed permanently from service. In
           addition, the DoD Government Charge Card Guidebook states that an AIR CardSM
           is assigned to a specific aircraft and must stay with the aircraft when it is
           transferred. Army officials should revise Army Regulation 710-2 to require
           organizations to periodically reconcile all cards listed as assigned to them in the
           AIR CardSM database to actual cards and aircraft on site. Additionally, Army
           officials should reemphasize the requirement to notify the Army CPM when an
           aircraft is transferred, removed from service, is lost, or damaged.

Verifying AIR CardSM Charges
           Army organizations did not have adequate controls for certifying and verifying
           processes that would match DoD and AIR CardSM contractor monthly bills to
           AIR CardSM receipts for fuel and ground services.

           AIR CardSM Receipt Process. After fueling or receiving ground services,
           aircrews sign the sales receipt and provide the receipts to their AO after each
           mission. Receipts should include the location, vendor, date, gallons, fuel grade,
           aircraft tail number, and signature of the aircrew member.

           AIR CardSM Billing, Certification, and Payment Process. The billing and
           payment cycle for fuel and ground services are different. For fuel purchases, the
           AIR CardSM contractor bills DESC. DESC certifies that the appropriated funds
           are available for payment, transmits the billing data to the Defense Finance and
           Accounting Service for payment, and populates the Fuels Automated System
           Enterprise Server with non-contract fuel billing information.7 The Defense


7
    Since December 5, 2006, Into-Plane contract fuel charges have also been included in the Fuels
    Automation System Enterprise Server.

                                                      9

           Finance and Accounting Service subsequently interfund bills8 the Army
           organization that received fuel. For ground services, the AIR CardSM contractor
           bills the Army organization that received the service. The Army organization
           verifies the charges to receipts, certifies the charges are correct, and forwards the
           bill to the Defense Finance and Accounting Service office for payment.

           AIR CardSM Verification Process. The methods used for verifying AIR CardSM
           charges differ, depending on the service provided. Army AOs can verify
           non-contract fuel charges before payment by comparing and verifying the charges
           shown in the Fuels Automated System Enterprise Server with transaction receipts
           from the aircrew. In addition, AOs can verify contract and non-contract fuel
           charges after payment by comparing and verifying the Defense Finance and
           Accounting Service’s interfund billing with AIR CardSM receipts. For ground
           services, the AO at the Army organization verifies the AIR CardSM contractor’s
           billed ground service charges against transaction receipts. See Appendix E for a
           detailed description of the AIR CardSM transaction and payment processes.

           Bill Processing Centers. We visited three central bill processing centers to
           review the reconciliation and documentation processes. These centers were to
           certify and reconcile the transactions generated by various Army sites. The
           centers were the Headquarters, OSAA, Budget Office, Fort Belvoir; the
           Directorate of Logistics, Supply and Services Division, Fort Rucker; and the
           U.S. Army Reserve Command, 244th Theater Aviation Brigade, Fort McPherson,
           Georgia. The centers are responsible for certifying payment vouchers, reconciling
           bills to receipts, verifying documentation, and processing invoices for vendor
           payments. Each center had an AO who verified and validated AIR CardSM
           charges. From October 2002 through May 2006, the centers processed
           310,523 purchases worth more than $53 million.

                   Verifying Receipts for AIR CardSM Billed Transactions for Non-
           contract Fuel. Only one of the three centers we visited had access to the Fuels
           Automated System Enterprise Server. As a result, non-contract fuel verification
           and reconciliation between the amounts billed and shown on the receipt did not
           occur before the Defense Finance and Accounting Service paid the bill. Only
           Fort Rucker had access to the server. At Fort Rucker, flight operation personnel
           entered receipt data into an in-house fuel database program, generated a monthly
           fuel report, and sent the report to the AO at the Fort Rucker central bill processing
           center. The AO informed us that he checks the fuel reports against transactions
           posted on the Fuels Automated System Enterprise Server monthly. However, he
           could not provide an audit trail supporting the verification and reconciliation of
           non-contract fuel transactions. As a result, the Army cannot be assured that
           officials verified and reconciled amounts billed before paying.

                   Reconciling Receipt Data to the Defense Finance and Accounting
           Service Interfund Bills for Fuel Purchases. AOs at the three centers did not
           reconcile receipt data to the Defense Finance and Accounting Service interfund
           bills on a monthly basis. For example, at OSAA, Budget Office personnel had
           not reconciled interfund bills for AIR CardSM transactions for the 10 months
           before our visit, and could not verify AIR CardSM charges for prior years.

8
    Interfund billing is an automated fund transfer between two appropriations or funds.

                                                      10 

     Contract fuel could be reconciled only after the Defense Finance and Accounting
     Service made payment, but non-contract fuel could be reconciled before or after
     payment; however, officials did neither.

     Reconciling Receipts Data for Ground Services. AOs at the three centers
     stated that they were able to match ground service receipt information to
     AIR CardSM bills. However, none of the three centers could provide an audit trail
     to support that they reconciled receipt information. The Fort Rucker bill
     processing center received monthly fuel reports from assigned units. However,
     the fuel reports did not include ground service receipts needed to reconcile
     charges. Officials at the Fort McPherson bill processing center could not
     reconcile ground service charges because they also did not receive receipts from
     the subordinate organization at Dobbins Army Reserve Base. Officials at the
     OSAA bill processing center did receive ground service receipts, but they could
     not provide an audit trail to document that they reconciled the charges.

     Army Regulation 710-2 requires that, each month, receipts be matched to billed
     transactions to verify the charges. The regulation also requires Army
     organizations that use the AIR CardSM to apply for access to the Fuels Automated
     System Enterprise Server, where they can view and verify fuel transactions and
     prevent billing questionable charges. Army organizations must reemphasize the
     Army Regulation 710-2 requirement that Army AOs validate charges against
     receipts each month by using the Fuels Automated System Enterprise Server to
     review the fuel charges before making payment or by comparing DoD interfund
     bills to AIR CardSM receipts after payment.

     Audit Trail Documentation. The three bill processing centers were responsible
     for overseeing 310,523 AIR CardSM purchases worth about $53 million from
     October 1, 2002, through May 22, 2006. AOs at Army bill processing centers
     certified and paid fuel and ground service transactions without documenting their
     verification process. To validate the reliability of AIR CardSM bills verified by the
     three centers, we compared 9,152 AIR CardSM purchases valued at $3.1 million
     with supporting documentation at 8 individual organizations. We found no
     documentation for 8 percent of the purchases (737 purchases) valued at $339,713.
     Table 2 shows a summary of results by each bill processing center. Appendix H
     shows detailed results by individual Army organizations.

                            Table 2. Sampled Charges to AIR CardsSM
                                                                     Transaction          Percent*
                   Site Visit Universe        Sample Size            Not Found           Not Found
    Location     Charges      Amount      Charges      Amount     Charges   Amount     Charges Amount
Fort Rucker      161,007 $13,802,768       5,805    $1,779,745      112      $46,935      2       3
OSAA               99,762    24,879,564    2,191        653,355     266       77,094     12      12
      th
244 Theater
Aviation
Brigade            49,754    14,378,611    1,156        699,053     359      215,684     31      31
    Total        310,523 $53,060,943       9,152    $3,132,153      737     $339,713      8      11
*
    Judgment sample percentage does not generalize to universe.



                                                11 

    Reasons for missing supporting documentation include aircrews not submitting
    receipts to the organization, receipts filed in the wrong monthly file, illegible
    receipts, or AIR CardSM charges billed to the wrong Army organization. For
    example, at Dobbins Army Reserve Base, we were unable to locate receipts for
    202 contract fuel transactions valued at $152,610.

    The Circular and DoD Regulation 7000.14-R state that customer organizations are
    responsible for the accuracy, completeness, timeliness, and documentation of the
    data generated for input into the finance and accounting systems and any financial
    reports. The guidance emphasizes that customer organizations must validate
    source data associated with financial transactions. Based on the results of the
    sample, we believe Army organizations can improve their process for
    documenting and matching AIR CardSM charges. Army organizations must
    maintain purchase receipts and then validate the receipts against subsequent
    AIR CardSM bills so that only valid bills are paid.

Retaining Receipts for Card Charges
    The Army must improve its records retention policy for AIR CardSM charges.

    Consistency of DoD Receipt Retention Policy. DoD Financial Management
    Regulation 7000.14-R, Volume 1, Chapter 9, August 2000, identifies the National
    Archives and Records Administration as the governing authority for records
    retention, and in General Records Schedule 3, March 2006, it states that records
    for transactions greater than $2,000 should be destroyed 6 years and 3 months
    after final payment. General Records Schedule 6, December 1998, states that
    copies of sales tickets for credit card purchases of gasoline should be destroyed
    after 3 years. Both sections provide conflicting guidance. The Financial
    Management Regulation allows DoD Components to issue supplemental guidance
    extending record retention requirements.

    In January 2006, DESC issued interim policy DESC P-8, which directs
    AIR CardSM users to retain receipts according to DoD Financial Management
    Regulation for 6 years, 3 months.

    Army Receipt Retention Policy. Prior to March 2006, the Army had no
    retention policy for AIR CardSM receipts. We identified that seven of the eight
    organizations visited had their own policy. Of the seven, six had policies to retain
    documentation for less than 3 years, the least restrictive interpretation of the
    National Archives and Records Administration guidance. For example, Knox
    Heliport policy at Fort Rucker was to retain records for 24 months, but records
    were maintained for only 21 months. One Army organization had no documented
    policy for retaining AIR CardSM receipts.

    In March 2006, the Army issued, “Interim Policy Guidance-Government Fuel
    Card (GFC) Program Roles Responsibilities, and Accountability,” which
    proposed changing Army Regulation 710-2 to include a retention period of
    3 years. The Army must revise its interim policy and proposed changes to Army
    Regulation 710-2 to comply with the DESC regulation.


                                         12 

Adequacy of Resources for Management and Oversight 

    The Army did not put adequate resources in place to oversee the AIR CardSM
    Program. Prior to March 2006, the Army Petroleum Center acted as the CPM,
    with three people managing the AIR CardSM Program. When the CPM
    responsibility moved to the Army G4 in March 2006, two people were
    responsible for managing the program. Officials informed us that they receive no
    dedicated funding for managing the AIR CardSM Program, and that each employee
    had other full-time responsibilities. Managing the AIR CardSM Program was
    assigned as an additional duty.

    In addition, the Army’s AIR CardSM Program management structure did not
    provide for adequate oversight by the major commands or installations to ensure
    accuracy of AO-provided additions, modifications, and deletions to the
    AIR CardSM database before passing the request to the CPM. Some modification
    requests lacked all the required information, so the CPM returned them to the
    requestors for correction. Officials from the Army CPM stated that they do not
    have the resources to follow up on errors in unprocessed requests. As a result,
    some AIR CardSM database changes were not processed.

    DESC interim policy P-8 requires the Services to appoint a command account
    manager who reports to the Service CPM and supports and oversees all
    participants in the program. In addition, P-8 includes policy for roles,
    responsibilities, and accountability of the AIR CardSM Program. Officials issued
    the interim policy pending inclusion of the Policy P-8 into DoD
    Manual 4140.25-M, Volume II, Chapter 16, “Government Fuel Card Program
    Management Office,” which, as of June 2007, had not occurred.

    On March 10, 2006, the Army Deputy Chief of Staff for Logistics, G4, issued
    interim guidance that proposed changes to Army Regulation 710-2. The interim
    guidance shows an AIR CardSM hierarchy for the Army that represents the new
    DESC policy. The following figure illustrates the AIR CardSM reporting
    hierarchy.




                                        13 

                               LEVEL I
                                               DESC

                                             Army
                        LEVEL II           Component
                                     Program Manager (CPM)
                                 Major Commands / Reserve
                 LEVEL III    Command / Installation Management
                               Command / National Guard Bureau

            LEVEL IV     Installation Commander / National Guard Bureau
                          State Commander / Army Reserve Commander


       LEVEL V
                             Certifying Official / Accountable Official


LEVEL VI                                    Card User



             Six-Level Reporting Hierarchy for the AIR CardSM

The Army CPM planned to implement the six-level reporting structure by
September 2006. However, as of June 14, 2007, the Army CPM stated that
command account managers had been established for all of the major command
and 80 percent of the installation command levels. Major commands are
responsible for implementing, administering, and monitoring the GFC Program
for the major commands. The major commands are responsible for overseeing
the installation Commanders, who manage the day-to-day operations of the
AIR CardSM Program.

The Army CPM is continuing to work with DESC to identify the training
requirements at the major command and installation levels. As of May 31, 2007,
DESC has conducted three training sessions. Additionally, DESC developed
AIR CardSM training courses for card users, AOs, and Component Managers that
are available on-line at www.desc.dla.mil. The DESC AIR CardSM training is
designed for all program participants and covers card description, authorized
purchases, user procedures, and ethics and responsibilities for users and
managers. Officials should be able to use the on-line training to begin training
and tailor it according to the needs identified.

In implementing DESC and Army interim guidance, the Army will comply with
the Circular requirement that management establish an appropriate structure to
carry out program responsibilities. The DESC and Army interim guidance will
implement that structure, but the Army must provide resources to allow each level
of the reporting hierarchy to effectively manage the AIR CardSM Program. In
addition, with proper training at the major command and installation levels, the
reporting hierarchy will allow the oversight necessary to correct and update the
database, retain the necessary documentation, and reconcile receipts to payments.




                                       14 

Conclusion 

     When aircraft ownership changes, AOs at individual Army organizations must
     inform the Army CPM so that the AIR CardSM database can be updated. The
     database must be up to date to route bills to the responsible Army organizations.
     Bills also must be reconciled with the receipt information for fuel and ground
     services. Further, an organization structure must be in place and funded to oversee
     and manage the AIR CardSM Program. These actions will prevent or significantly
     reduce the risk of erroneous or fraudulent billing to Army organizations.

     The Army took positive steps to increase oversight of the AIR CardSM Program such
     as implementing AIR CardSM reporting hierarchy requirements. Additionally, as of
     June 27, 2007, Army officials had corrected 95 of the 124 discrepancies identified
     in the AIR CardSM database, cancelled 8 of the 9 duplicate AIR CardsSM, cancelled
     5 of the 7 missing AIR CardsSM, and destroyed the one AIR CardSM that the
     organization cancelled but did not destroy. However, additional steps are needed in
     the areas of guidance, resources, oversight, and training.

Recommendations
     1. We recommend that the Secretary of the Army:

            a. Provide resources (personnel and funding) for the Office of the Deputy
     Chief of Staff for Logistics, G4, to oversee the Army Aviation Into-plane
     Reimbursement Card Program.

            b. Incorporate “Interim Policy Guidance-Government Fuel Card (GFC)
     Program Roles, Responsibilities, and Accountability,” into Army
     Regulation 710-2, “Inventory Management, Supply Policy Below the National
     Level,” July 8, 2005, to:

            •	 include a record retention policy for the Aviation Into-plane
               Reimbursement Card that complies with DoD Financial Management
               Regulation,

            •	 require accountable officials to maintain an audit trail of charges that
               they validated, and

            •	 require managers of Aviation Into-plane Reimbursement Cards at
               major commands and installations to periodically reconcile all cards
               listed as assigned to them in the Aviation Into-plane Reimbursement
               Card database to actual cards and aircraft on site.

     2. We recommend that the Army Deputy Chief of Staff for Logistics, G4:

             a. Designate and train officials at all Army major commands and
     installations that use the Aviation Into-plane Reimbursement Cards to adequately
     oversee the program.


                                         15 

            b. Reemphasize the requirement in Army Regulation 710-2 for
    accountable officials to report when an aircraft is transferred or removed from
    service; when an Aviation Into-plane Reimbursement Card is lost, needs to be
    reassigned, or needs to be terminated; and to validate charges against receipt
    information each month.

Management Comments Required
    The Secretary of the Army, and the Army, Office of the Deputy Chief of Staff for
    Logistics, G4, did not comment on a draft of this report. We request that the
    Secretary of the Army, and the Army, Office of the Deputy Chief of Staff for
    Logistics, G4, provide comments on the final report by November 5, 2007.




                                        16 

Appendix A. Scope and Methodology 

   We performed this audit from April 2006 through June 2007 in accordance with
   generally accepted government auditing standards. Those standards require that
   we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based on our audit
   objectives. We believe that the evidence obtained provides a reasonable basis for our
   findings and conclusions based on our audit objectives.

   We reviewed policies, procedures, and instructions for the AIR CardSM Program
   issued by the Office of Management and Budget, DoD, DESC, and Army that
   includes guidance on fuel management and controls for processing AIR CardSM
   transactions. We interviewed key AIR CardSM Program personnel at DESC, MSC,
   the Defense Finance and Accounting Service, the Army Petroleum Center, and
   Army Office of the Deputy Chief of Staff for Logistics, along with Army
   personnel at installations visited. We evaluated the use of the AIR CardSM and the
   controls over processing reimbursement card payments. Furthermore, we
   reviewed supporting documentation for duplicate payments and transactions
   processed during the transition between AIR CardSM contractors. The supporting
   documentation included fuel reports, merchant transaction receipts, and fuel
   tickets. To evaluate controls over the AIR CardsSM, we inventoried AIR CardsSM,
   determined whether AIR CardsSM were assigned to retired Army aircraft, and
   determined whether aircraft had multiple active AIR CardsSM assigned to them.

   We analyzed data provided by the DoD Inspector General Data Mining Division
   on AIR CardSM purchases from October 1, 2002, through May 22, 2006, and
   judgmentally selected the bill processing centers and corresponding organizations
   and installations to be visited based on the:

      •	 high number of AIR CardSM transactions,

      •	 high dollar amount of total AIR CardSM transactions, and
      •	 large quantity of aircraft and cards in one location.

   We chose eight organizations at four Army installations to sample transactions
   and inventory AIR CardsSM: Dobbins Army Reserve Base, Fort Belvoir,
   Fort Hood, and Fort Rucker. For each location’s sample, we compared charge
   information that the DoD Inspector General Data Mining Division provided to
   supporting AIR CardSM receipt information. We later added an organization at a
   fifth installation, Fort Bragg, to inventory AIR CardsSM. The detailed
   methodology used to sample transactions and inventory AIR CardsSM follows.

      •	 Dobbins Army Reserve Base, 228th Aviation Battalion. We
         judgmentally selected 6 months of AIR CardSM transactions that AVCARD
         processed from January through April 2004 and November through
         December 2004, and 10 months of AIR CardSM transactions that MSC
         processed from January through May 2005 and January through


                                        17 

   May 2006, for five aircraft tail numbers assigned to the Army 228th 

   Aviation Battalion. Additionally, we inventoried the AIR CardsSM of 

   aircraft assigned to the Army 228th Aviation Battalion. 


•	 Fort Belvoir, OSAA RFC. We judgmentally selected 5 months of
   AIR CardSM transactions that AVCARD processed from January 2004
   through May 2004, and 10 months of AIR CardSM transactions that MSC
   processed from January 2005 through June 2005 and from January 2006
   through April 2006, for five aircraft tail numbers assigned to the OSAA,
   Fort Belvoir RFC. Additionally, we inventoried AIR CardsSM of aircraft
   assigned to OSAA, Fort Belvoir RFC.

•	 Fort Bragg, 82nd Combat Aviation Brigade. We inventoried and
   sampled AIR CardsSM assigned to aircraft from the 2nd and 3rd battalions
   of the 82nd Combat Aviation Brigade. We did not sample transactions.

•	 Fort Hood, OSAA RFC. We judgmentally selected 16 months of
   AIR CardSM transactions that AVCARD processed from January 2003
   through December 2004 excluding February 2004 to September 2004, and
   16 months of AIR CardSM transactions that MSC processed from
   January 2005 through April 2006, for three aircraft tail numbers assigned
   to the OSAA, Fort Hood RFC. We also inventoried AIR CardsSM of
   aircraft assigned to the OSAA, Fort Hood RFC.

•	 Fort Rucker, Cairns Airfield. We judgmentally selected from
   AIR CardSM transactions that AVCARD processed from January 2004
   through December 2004, and from transactions that MSC processed from
   January 2005 through May 2006, excluding March 2006. We inventoried
   AIR CardsSM for aircraft assigned to Fort Rucker, Cairns Airfield.

•	 Fort Rucker, Hanchey Airfield. We judgmentally selected from
   AIR CardSM transactions that AVCARD processed from January 2003
   through December 2004, excluding November 2003, and from
   transactions that MSC processed from January 2005 through May 2006.
   We inventoried AIR CardsSM of aircraft assigned to Fort Rucker, Hanchey
   Airfield.

•	 Fort Rucker, Knox Airfield. We judgmentally selected from AIR CardSM
   transactions that AVCARD processed from October 2002 through
   December 2004, excluding November 2004, and from transactions that
   MSC processed from January 2005 through May 2006. We inventoried
   AIR CardsSM of aircraft assigned to Fort Rucker, Knox Airfield.

•	 Fort Rucker, Lowe Airfield. We judgmentally selected from AIR CardSM
   transactions that MSC processed from January 2006 through May 2006.
   We inventoried AIR CardsSM of aircraft assigned to Fort Rucker, Lowe
   Airfield.

•	 Fort Rucker, Shell Airfield. We judgmentally selected from AIR CardSM
   transactions that MSC processed from January 2006 through May 2006. We
   inventoried AIR CardsSM of aircraft assigned to Fort Rucker, Shell Airfield.

                               18 

Additionally, we reviewed three bill processing centers to evaluate controls over
processing AIR CardSM transactions:

   •	 U.S. Army Reserve Command, 244th Theater Aviation Brigade, 

      Fort McPherson; 


   •	 Headquarters, OSAA Budget Office, Fort Belvoir; and

   •	 Directorate of Logistics, Supply and Services Division, Fort Rucker.

Scope Limitation. Due to audit staff personnel changes, we limited the scope of
the audit work to include only the effectiveness of Army controls over the use of
AIR CardsSM.

Use of Computer-Processed Data. We relied on computer-processed data from
AVCARD and MSC, which were provided by the DoD Inspector General Data
Mining Division. We did not perform a formal reliability assessment of the
computer-processed data. However, we were able to establish data reliability for
the information by comparing AIR CardSM purchase transaction data with source
documentation. We did not find material errors that would preclude the use of
computer-processed data to meet the audit objective or that would change the
conclusion of this report.

Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This
report provides coverage of the DoD Contract Management and DoD Financial
Management high-risk areas.




                                    19 

Appendix B. Prior Coverage 

       During the last 5 years, the GAO, the DoD Office of Inspector General (DoD IG),
       and the Department of the Army have issued 9 reports discussing purchase cards
       and fuel purchases. Unrestricted GAO reports can be accessed over the Internet at
       http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
       http://www.dodig.mil/audit/reports. Unrestricted Army Audit Agency reports can
       be accessed at https://www.aaa.army.mil/reports.htm.

GAO
       GAO-04-989R, “Sandia National Laboratories: Further Improvements Needed to
       Strengthen Controls Over the Purchase Card Program,” August 6, 2004

       GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD Program
       Management, but Actions Needed to Address Misuse,” December 2, 2003

       GAO-04-87G, “Audit Guide: Auditing and Investigating the Internal Control of
       Government Purchase Card Programs,” November 2003

       GAO-03-292, “Purchase Cards: Control Weaknesses Leave the Air Force
       Vulnerable to Fraud, Waste, and Abuse,” December 20, 2002

       GAO-02-1041, “Purchase Cards: Navy is Vulnerable to Fraud and Abuse but is
       Taking Action to Resolve Control Weaknesses,” September 27, 2002

DoD IG
       DoD IG Report No. D-2004-096, “Controls Over Purchase Cards at Naval
       Medical Center San Diego,” June 29, 2004

       DoD IG Report No. D-2003-109, “Summary Report on the Joint Review of
       Selected DoD Purchase Card Transactions,” June 27, 2003

       DoD IG Report No. D-2003-003, “Controls for the DoD Aviation Into-Plane
       Reimbursement Card,” October 3, 2002

Army
       U.S. Army Audit Agency Report No. A-2003-0072-FFG, “Government Purchase
       Card Program: U.S. Army Reserve Readiness and Training Center Fort McCoy,
       Wisconsin,” December 27, 2002




                                          20 

Appendix C. 	Guidance from the Program
             Management Office
   Guidance and Policy Issuance. Since its establishment, the DoD-level GFC
   Program Management Office developed and issued AIR CardSM policies and
   guidance for the Services to follow that has been incorporated into the DoD
   Charge Card Guide Book; Office Of Management And Budget Circular A-123,
   Appendix B; and DoD Regulations. Additionally, the GFC Program Management
   Office rewrote DoD Manual 4140.25, Volume II, Chapter 16, “DoD Fleet Credit
   Card,” June 12, 2002. The revised chapter was renamed “Government Fuel Card
   Program Management Office, DoD FLEET Card, AIR CardSM, SEA CardSM” and
   includes information on the program management office and each of the three
   Government fuel cards. DESC submitted the revised chapter on November 29,
   2006, to the Office of the Under Secretary of Defense for review and approval.
   As of May 7, 2007, the Office of the Under Secretary of Defense had not signed
   the revised chapter. To provide guidance to fuel card users, DESC issued interim
   policies and procedures to use until the revised DoD manual 4140.25-M is issued.

   Public Websites. The GFC Program Management Office established an
   AIR CardSM Program website to provide a central location for users to retrieve
   program information. The public website includes GFC policy and guidance,
   Service Components’ point-of-contacts, training for AOs and cardholders,
   information on aircrew use of cards, fuel purchase data, merchant locations, and
   links to the AIR CardSM contractors, MSC, Fuel Card Program website. The MSC
   website provides locations of approved aviation fuel merchants and additional
   AIR CardSM Program information for cardholders, AOs, certifying officers, and
   merchants.




                                      21 

Appendix D. 	Review of Transition between
             Aviation Into-Plane Reimbursement
             Card Contractors
           DESC oversaw the transition of the AIR CardSM contract from AVCARD contract
           support to MSC contract support with a few unresolved issues. Transition
           problems included a contract award protest and the transaction of AIR CardSM
           purchases that AVCARD did not process before the contract ended.

           AVCARD. In January 1997, DESC entered into a contract with Kropp Holdings,
           Incorporated, doing business as AVCARD, an aviation charge card company.
           The contract was for an 8-month test period with 2 option years. AVCARD
           issued 500 cards during the test period. In October 1999, DESC issued another
           contract for the period January 1, 2000, through December 31, 2004.1 Active
           cards had increased to more than 17,900 when the contract ended. DESC
           awarded AVCARD a 3-month contract extension until March 31, 2005, to process
           and close out AIR CardSM purchase transactions that occurred before
           December 31, 2004. After March 31, 2005, DESC processed all AIR CardSM
           purchase transactions that occurred prior to December 31, 2004, that AVCARD
           had not closed out.

           Multi Service Corporation. Effective January 1, 2005, the new AIR CardSM
           contractor, MSC, began providing AIR CardSM services. The contract totaled
           $6,274,688, for a base year and five option years. Under the contract, MSC
           manages AIR CardSM customer accounts, issues new cards, and authorizes and
           processes all AIR CardSM transactions for aviation fuel, ground services, and
           fuel-related supplies purchased at commercial locations. As of
           November 15, 2006, MSC had 19,912 active AIR CardsSM.

           Contract Protest. DESC awarded a contract to MSC for commercial charge card
           services for the AIR CardSM Program on September 23, 2004, with an effective
           contract start date of January 1, 2005. On October 4, 2004, AVCARD, the
           incumbent contractor, filed a protest of the contract award with GAO. AVCARD
           primarily objected to the DESC evaluation of the proposals and source-selection
           decision. On December 30, 2004, the GAO denied the AVCARD protest and
           found that the DESC evaluation and source-selection decisions were reasonable
           and consistent with the solicitation’s evaluation factors. With the GAO
           upholding the contract award, the AVCARD contract as the charge card processor
           for AIR CardSM purchases ended December 31, 2004.
           During the contract award protest, AVCARD officials did not communicate with
           MSC, and they did not provide MSC with important contract transaction
           information; for example, a current inventory of active AIR CardsSM. MSC had to
           rely on an old AIR CardSM database to issue new AIR CardsSM, resulting in
           military organizations receiving cards for aircraft that they no longer owned.

1
    Portions of background information derived from IG DoD Report No. D-2003-003, “Controls for the DoD
    Aviation Into-Plane Reimbursement Card,” October 3, 2002.

                                                   22

In addition, MSC and DESC were unable to test data file transfer processes before
the January 1, 2005, contract start. DESC and MSC officials tested the charge
card processing system during the first month of contract operations. Although
the transition from AVCARD to MSC was not completed as planned, we did not
identify any significant negative effects resulting from the transition.

Processing Transition Transactions. With the AIR CardSM contract ending and
transactions that occurred prior to December 31, 2004, still needing to be
processed, DESC awarded AVCARD a 3-month contract extension to continue
processing AIR CardSM transactions that occurred before December 31, 2004.
After March 31, 2005, DESC processed all transactions that occurred prior to
December 31, 2004, that AVCARD had not processed (hereby referred to as
“transition transactions.”) Most of the transition transactions were several years
old. To process the transition transactions, DESC reviewed fuel invoices along
with supporting documentation received from the aviation fuel merchant. A
DESC retail fuel specialist reviewed the documentation for accuracy and verified
that DESC had not already paid for the service. DESC certified the invoices for
payment and submitted them to DFAS to process payment.

Transition Transaction Review. We reviewed 209 transition transactions for
AIR CardSM that DESC processed from February 2005 through June 2006. We
compared the transaction documentation to an accounting database of transactions
processed by DESC. Our review showed that DESC accurately processed the
transactions with only a few data entry errors; however, we found one
$36,228 transaction that had been processed and paid twice, once by AVCARD
and once through DESC. We followed up with DESC and they provided
documentation showing that a refund of $36, 228 was received June 21 2007.




                                    23

Appendix E. 	Aviation Into-Plane Reimbursement
             Card Transaction and Payment
             Process
   We reviewed the AIR CardSM payment process during our visits to Army sites.
   Charges for contract fuel, non-contract fuel, and ground services were billed and
   paid through two distinct processes. The AIR CardSM contractor (AVCARD/ MSC)
   processed all fuel and ground service charges made through the AIR CardSM.

   Receipts. After refueling or receiving ground services, the aircrew received a
   receipt for the transaction from the merchant. The aircrew certified that it
   received the product or service delivery by signing the receipt. Generally, the
   aircrew would turn in the receipts to flight operations at the end of their mission.
   Flight operations at some sites entered the receipts into an Army internal database
   and forwarded the information to their logistics or comptroller’s office, and filed
   the hardcopy receipts at flight operations. Generally, organizations did not
   validate receipts to monthly bills.

   Contract Fuel. The AIR CardSM contractor received billing information from
   merchants with into-plane contracts, processed it, and forwarded it to DESC.
   DESC electronically transferred the billing data to the automated voucher
   examining and disbursing system. Defense Finance and Accounting Service,
   Columbus used automated voucher examining and disbursing system to pay
   into-plane contractors on behalf of DESC. DESC then obtained reimbursement
   from Army organizations in the form of interfund billings processed through the
   Defense Finance and Accounting Service. See Figure E-1 for the Army payment
   process for contract fuel.

   Non-contract Fuel and Ground Services. The AIR CardSM contractor paid all
   non-into-plane merchants for non-contract fuel and ground services for Army
   aircraft. The AIR CardSM contractor then issued weekly billing statements to
   Army organizations for ground services and to DESC for fuel charges. Certifying
   officials visually scanned the billing statements for any unusual charges. Next,
   certifying officials completed forms to process payment through their local
   Defense Finance and Accounting Service office. See Figure E-2 for the payment
   process for non-contract fuel and Figure E-3 for the payment process for ground
   services.




                                        24

      Aircraft lands at                                         ACC separates contract
     commercial airport                                           fuel purchases from
                                                                    ground services;
                                       FBO forwards                 summarizes and
                                     sales information           forwards contract fuel
   Aircraft receives DESC        electronically, by mail, or          information
   into-plane Contract fuel             fax to ACC              electronically to DESC
          from FBO

                                                                 DESC receives invoice,
  FBO swipes (preferred),                                          reviews/certifies for
  imprints, or hand-scribes                                      DESC   receives
                                                                  payment,
                                                                 invoice andprocesses to
    customer information                                        DFAS,   and entersfor
                                                                                   data in
     from AIR Card and                                           reviews/certifies
                                                                 FES.  DESC
                                                                 payment and  researches
      records details of                                        contested charges in FES
     purchase on receipt


   Pilot validates and signs
  receipt, and retains a copy                                      DFAS Columbus
                                                                    payment system
                                                                  (AVEDS) processes
                                                                  payment to FBO and
  Pilot turns in receipt copy                                       posts to DFAMS
   to records keeper upon
   returning from mission

                                                                 DFAMS bills DoDAAC
                                                                    from AIR Card
     Unit matches pilot’s
    receipt to contract fuel
   purchases listed in FES,
  and notifies DESC of any
      contested charges.




       ACC          AIR Card Contractor
       AIR          Aviation Into-Plane Reimbursement
       AVEDS        Automated Voucher Examining and Disbursing System
       DESC         Defense Energy Support Center
       DFAMS        Defense Fuel Automated Management System
       DFAS         Defense Finance & Accounting Service
       DoDAAC       Department of Defense Activity Address Code
       FBO          Fixed Base Operator
       FES          Fuel Enterprise System


Figure E-1. Army AIR CardSM Payment Process for Contract Fuel Transactions

                                             25
    Aircraft lands at
   commercial airport              FBO forwards sales          ACC pays FBOs that have
                              information electronically, by    merchant agreements for
                                 mail, or by fax to ACC        non-contract fuel purchases
                                                               and forwards an invoice to
                                                                         DESC
   Aircraft receives fuel
 from FBO. If more than
 one FBO is at the airport
 and one is a DESC into-                                         DESC receives invoice;
  plane contracted FBO,                                            reviews/certifies for
     they must use the                                            payment; processes to
      contracted FBO                                            DFAS, and enters data in
                                                                 FES. DESC researches
                                                                contested charges in FES

 FBO swipes (preferred),
 imprints, or hand-scribes
   customer information                                        DFAS Columbus payment
    from AIR Card and                                             system pays ACC for
     records details of         Unit matches pilot’s receipt    transactions from FBOs
    purchase on receipt             to non-contract fuel       with a merchant agreement
                                purchases listed in FES, and     or pays the FBO if the
                                   notifies DESC of any        merchant does not have a
                                     contested charges.         merchant agreement and
 Pilot validates and signs                                       posts the transaction to
receipt, and retains a copy                                              DFAMS


Pilot turns in receipt copy
 to records keeper upon                                        DFAMS bills DoDAAC
 returning from mission                                           from AIR Card




Figure E-2. Army AIR CardSM Payment Process for Non-contract Fuel Transactions

                                            26
   Aircraft lands at                                       ACC pays FBO for services
  commercial airport                                          and separates ground
                                                           services from contract/non-
                                                             contract fuel purchases
                               FBO forwards sales
   Aircraft receives      information electronically, by
 ground services from        mail, or by fax to ACC
         FBO
                                                             ACC forwards ground
                                                           service invoices to the unit
                                                              that reviews/certifies
     FBO swipes                                             payments and processes
 (preferred), imprints,
    or hand-scribes
 customer information
  from AIR Card and                                        Unit stamps date and time
   records details of                                      on ACC invoice; certifies
  purchase on receipt                                       invoice; verifies line of
                                                             accounting cited; and
                                                           forwards invoice to their
                                                               servicing DFAS.

  Pilot validates and
  signs receipt, and
    returns a copy                                          DFAS Columbus payment
                                                           system processes payment to
                                                            ACC and posts to DFAMS


 Pilot turns in receipt
copy to records keeper                                       DFAMS bills billable
 upon returning from                                        DoDAAC from AIR Card
        mission




Figure E-3. Army AIR CardSM Payment Process for Ground Services Transaction

                                          27
Appendix F. Transactions that AVCARD
            Processed
      Schedule F.1. Army AIR CardSM Contract Fuel Charges Processed from
                    October 1, 2002, through December 31, 2004

           Product Description              Amount Charged    No. of Transactions
           Jet A+                           $ 42,999,763.03          119,636
           Jet A1+                            10,120,348.20            7,625
           Federal excise tax                  6,749,983.35          153,765
           Jet A rapid refuel                  3,604,261.81           23,876
           Jet A                               3,585,146.05           11,130
           Service code 498 (not defined)        968,806.80              167
           JP 8                                  876,582.89            2,046
           Flow fee                              648,463.97            8,781
           Jet A+ (into-truck)                   509,130.03              165
           State tax (non-refundable)            117,326.44           17,639
           Customs duties                        115,811.34            4,935
           Overtime fees                          18,150.35              279
           Tax and landing fee                    13,490.13            2,620
           Into-plane delivery fees               12,382.26            1,220
           Service code 338 (not defined)          9,740.49                7
           MFR tax                                 7,470.34              610
           AVGAS                                   6,299.36               27
           Transportation                          2,086.36              149
           Sampling charge                         1,664.47               60
           Service code 336 (not defined)            430.35                1
           Service code 239 (not defined)            245.30                2
           Supervision fees                           74.03               19
           Monthly use fee                             7.21                2
             Total                          $ 70,367,664.56          354,761


Acronyms
 AVGAS         Aviation Gas
 JP            Jet Propulsion




                                             28

Schedule F.2. Army AIR CardSM Non-contract Fuel Charges Processed from
              October 1, 2002, through December 31, 2004

      Product Description     Amount Charged    No. of Transactions
      Jet A                   $ 14,580,384.78          30,474
      Jet A with additive        4,750,971.55          10,528
      JP-8                         568,599.79           1,227
      Jet B                        257,927.25             173
      AVGAS                        217,652.19             718
      Jet A-1                      166,212.22             114
      JP-4                          98,531.53             210
      Jet A-1 with additive         25,621.82              31
      JP-5                           1,687.20               2
      AVGAS/ 80                        852.30              17
      Jet B with additive              814.08               1
      Diesel fuel                       69.83               3
        Total                 $ 20,669,324.54          43,498




                                  29

Schedule F.3. Army AIR CardSM Ground Service Charges Processed from

              October 1, 2002, through December 31, 2004


    Service Description            Amount Charged No. of Transactions
    Federal excise tax              $ 1,053,461.47       26,190
    Handling charges                    589,004.42        3,039
    Sales tax                           304,170.77       12,473
    Ramp fees/ parking                  207,630.13        2,652
    Landing fee                         128,634.08        1,156
    Hangar rental                       106,285.08          567
    Deicing                              67,191.58          105
    Other taxes/ fees                    66,069.92        3,866
    Airport flow fee                     63,630.54        3,319
    State excise tax                     47,884.29        8,364
    Value added tax                      47,271.18          901
    Fuel additive                        44,476.30        3,548
    Goods and services tax               41,346.00          438
    Crew transport                       40,630.69          478
    Airport fee                          40,408.41        1,329
    Facility use fee                     26,711.62          505
    Maintenance                          26,528.09          173
    Pilot supplies                       26,357.24          332
    Miscellaneous charges                25,758.40        1,145
    Third-party-admin fee                25,474.16          792
    Security charges                     23,495.10          214
    Mineral oil tax                      22,121.90           42
    Lavatory services                    19,897.52          256
    Communications                       17,349.36          230
    Catering                             17,073.70          342
    Ground equipment charges             16,721.66          157
    Hydrant fueling fee                  12,936.25          779
    Auxiliary power unit/ ground
      power unit charges                  12,723.14         135
    Flight plans                          12,231.55         546
    Defuel charge                         11,633.31         124
    Call out fee                          10,279.00         145
    Into plane fee                         8,511.10         288
    Traffic handling                       7,076.69          38
    Oil                                    6,187.86         111
    Duties/ taxes                          5,596.61          48
    Departure tax                          4,354.04          84


                                    30

Schedule F.3. Army AIR CardSM Ground Service Charges Processed from
              October 1, 2002, through December 31, 2004 (cont)

   Service Description            Amount Charged No. of Transactions
   Concession fee                   $ 3,996.98            474
   Weather briefing                   3,282.65             37
   Consumption tax                    3,231.96              2
   Hotel charges                      2,764.15             16
   Oxygen/ water                      2,750.15             48
   Immigration fees                   2,560.92             75
   Thru put fee (gallons)             2,305.29            114
   Peak/ after hours charges          1,993.50             35
   Trash collection                   1,926.80             34
   Navigation fees                    1,808.78             28
   Charter                            1,638.98              8
   Rental car                         1,445.97             44
   Overtime fees                      1,245.00             14
   County tax                         1,177.64            119
   Aircraft cleaning                  1,130.07              7
   Provincial tax                     1,123.31             72
   Refuel charge                        854.42             22
   Customs handling charges             811.60             19
   Outside services                     792.69             13
   Storage fee                          681.17             93
   Fuel surcharge                       600.78             15
   City tax                             504.02             36
   State motor fuel tax                 502.16             57
   Local tax                            467.53             63
   Seneam                               449.15              1
   Baggage handling                     419.24             10
   Limousine                            303.04              6
   Permits                              283.27              7
   Customs fees                         188.17            153
   Airport head tax                     154.00              1
   Customs duty                         114.78              8
   Drug enforcement agency fees         103.15              1
   Dispatch fees                         90.00              8
   Private leisure tax                   88.40              1
   Over flight permits                   81.00              2
   Fuel coordination fee                 77.21              1



                                  31

Schedule F.3. Army AIR CardSM Ground Service Charges Processed from
              October 1, 2002, through December 31, 2004 (cont)

    Service Description              Amount Charged No. of Transactions
    Survival equipment                     $ 72.00             1
    Pilot training                           69.02             2
    Cargo handling                           52.07             1
    Parts                                    37.00             1
    Custom code (see receipt)                32.20             3
    Airline tickets                          24.00             1
    Pilot services                           19.43             4
    Signet network charge                    15.00             1
    Airport storage fee (gallons)             9.02             1
    In route charges                          6.93             2
    Slot fees                                 1.55             1
    Combustible fee                           0.72             1
    Fuel discount                     - 421,238.43         8,200
      Total                         $ 2,808,161.60        84,774




                                       32

Appendix G. Transactions that MSC Processed 

   Schedule G.1. Army AIR CardSM Contract Fuel Charges Processed from
                 January 1, 2005, through May 22, 2006

     Product Description                 Amount Charged No. of Transactions
     Jet A with additive                 $ 41,262,996.19        79,044
     Jet A                                  4,283,442.42         7,335
     Jet A1                                 3,520,908.36         3,759
     Federal excise tax                     3,056,417.90        91,507
     Rapid refueling                        1,660,437.37         4,618
     JP8                                      949,937.02         1,179
     Tax/fee/duty                             294,627.85        23,431
     Jet A with additive into truck           260,556.11            56
     Jet A1 with additive                     147,298.32           142
     Jet fuel Russian commercial [TS1]         72,784.42            77
     Value added tax                           27,943.73            92
     Overtime fee                              10,599.80           145
     Airport tax                                3,178.69           219
     Jet fuel Russian commercial [TS1
       full stop]                                2,601.59            4
     County tax                                  2,168.79          219
     Excise duty tax                             2,149.90           52
     Government tax                              1,993.35          219
     Fueling fee                                 1,348.89           38
     Into-plane fee                              1,172.22           55
     Hydrant fee                                   278.59           32
     Goods and services tax                        204.47            2
     Consumption tax                                75.79           25
     State tax                                      66.20            1
     Storage fee                                    31.57            7
        Total                             $ 55,563,219.54      212,258




                                         33

Schedule G.2. Army AIR CardSM Non-contract Fuel Charges Processed from
              January 1, 2005, through May 22, 2006

    Product Description                 Amount Charged     No. of Transactions
    Jet A                                 $ 8,863,726.45          13,579
    Jet A with additive                     4,561,963.28           5,701
    Jet A1                                  4,176,716.51           4,186
    Jet A1 with additive                    1,187,731.68           2,843
    Federal excise tax                        711,327.34          21,863
    Miscellaneous fuel tax                    158,401.70           3,090
    Admin fee                                 149,979.70           3,302
    Avgas 100 LL                               63,990.06             123
    Sales tax                                  58,331.46           2,032
    State tax                                  49,809.01           4,932
    JP8                                        41,594.02              79
    Flowage fee                                40,561.22           2,739
    Miscellaneous tax                          21,516.43             388
    Misc fuel                                  18,728.32              22
    Rapid refueling                            13,986.27               5
    Jet B                                       8,862.10              12
    Jet fuel Russian commercial
      [TS1 full stop]                           5,171.63               6
    JP8 into truck                              2,507.58               2
    Jet A with additive into truck              1,478.38               1
    Harmonized sales tax                        1,240.22              12
    Mineral oil tax                               871.47               3
    Goods and services tax                        821.17               7
    Avgas 80 LL                                   812.43               1
    Overtime fee                                  398.54               7
    JP4                                           397.27               4
    Turbine fuel aviation [JP5]                   235.43               5
    Customs duty                                  160.00               7
    Terminal operations fee                        40.00               1
    Jet fuel Russian commercial [TS1]           - 788.57               3
      Total                              $ 20,140,571.10          64,955




                                         34

Schedule G.3. Army AIR CardSM Ground Service Charges Processed from
              January 1, 2005, through May 22, 2006

   Service Description             Amount Charged   No. of Transactions
   Handling fees                     $ 415,516.53          1,815
   International ground handling       182,867.87            592
   Ground equipment services           174,371.47            739
   Landing fee                         151,202.45            925
   Miscellaneous                       116,731.26          1,674
   Hangar rental                        97,498.05            394
   Parking fee                          84,939.20          1,123
   Ramp fee                             62,452.99            954
   Fees                                 60,884.98            625
   Airport fee                          59,053.79            363
   Federal excise tax                   51,442.24          1,511
   De-icing                             49,727.39            150
   Vendor admin fee                     38,022.54            527
   Miscellaneous tax                    33,229.52            716
   Crew transportation                  29,202.91            380
   Fuel additive                        27,333.39          2,260
   Overtime fee                         18,026.87            273
   Catering                             17,011.57            228
   Flight planning/ weather             17,001.54            567
   Security services                    16,287.65            255
   Oil                                  13,930.04             49
   Navigation fee                       13,406.79            161
   Into-truck/ into-bladder fees        12,618.89              3
   Lavatory services                    12,558.68            135
   Callout fees                         12,335.00            155
   Pilot supplies                       11,607.17            301
   Admin fee                            11,123.72            136
   De-fuel                               8,185.71             83
   Passenger handling                    7,708.53            106
   Sales tax                             7,217.96            620
   Fuel system icing inhibitor           6,747.12            328
   Push back                             6,231.78             11
   Customs                               6,230.33             91
   Maintenance                           6,045.25             55
   Auxiliary power unit                  5,850.83              8




                                     35

Schedule G.3. Army AIR CardSM Ground Service Charges processed from

              January 1, 2005 through May 22, 2006 (cont) 


    Service Description          Amount Charged   No. of Transactions
    State tax                       $ 5,005.68            305
    Aviator breathing oxygen          4,369.55             47
    Tie down                          4,189.72             26
    Miscellaneous fuel tax            3,800.18            154
    Re-service                        3,435.36             39
    Aircraft cleaning                 2,812.50             41
    Other                             2,781.06             40
    Car rental                        2,110.46             12
    Flowage fee                       1,844.02            132
    Permit                            1,514.16              3
    Mineral oil tax                   1,382.95              1
    Trash removal                     1,271.11             21
    Cargo loading/ unloading          1,178.81              5
    Aircraft towing                   1,150.01             13
    Harmonized sales tax              1,014.17              6
    Ice                                 786.62             39
    Charter                             527.90              3
    Goods and services tax              460.43              7
    Passenger tax                       218.52              5
    Hydraulic fluid                      93.64              4
    Slot time & fees                     60.00              1
    Hydrant fee                          54.18              3
    Static dissipater additive           47.70              1
    Value added tax                      36.09              1
    Aircraft rental                      30.00              1
      Total                      $ 1,884,776.83        19,223




                                    36

                SM
AIR Card Contract Fuel Transactions
                                                                                                  Transaction           Percent*
                       Site Visit Universe        Sample Size            Transaction Found         Not Found           Not Found
     Location         Charges     Amount      Charges     Amount         Charges    Amount      Charges Amount      Charges   Amount
Ft. Rucker, AL        148,694 $13,284,888       5,671    $1,741,326       5,577    $1,703,424     94     $37,902      2         2
  Cairns Field                                    127           15,543      103        13,314     24       2,229      19        14 

  Hanchey Field                                   177           76,153      167      $72,795       10      3,258       6        4

  Knox Field                                      160       206,659         149       194,364      11     12,295       7        6

  Lowe Field                                    2,342     1,172,742       2,317     1,161,475     25      11,267       1        1

  Shell Field                                   2,865       270,229       2,841      261,476      24       8,753       1        3

OSAA, HQ
Ft. Belvoir, VA        67,892 $18,376,566       1,521      $472,780       1,362     $417,225      159    $55,555      10        12
  RFC
  Ft. Belvoir, VA                                 965       349,193         823      298,141      142     51,052      15        15
  RFC
  Ft. Hood, TX                                    556       123,587         539       119,084      17      4,503       3           4
244th Theater
Aviation Brigade
Ft. McPherson, GA      32,188 $10,148,747         800      $519,790         598     $367,180     202    $152,610      25        29
  228th Aviation
  Battalion,
  Dobbins, GA                                     800       519,790         598       367,180     202     152,610     25        29
  Total               248,774 $41,810,201       7,992    $2,733,896       7,537    $2,487,829     455   $246,067       6           9
* Judgment sample percentage does not generalize to universe.
            SM
AIR Card          Non-contract Fuel and Ground Service Transactions
                                                                                                 Transaction             Percent*
                          Site Visit Universe        Sample Size          Transaction Found       Not Found             Not Found
       Location          Charges     Amount      Charges        Amount    Charges   Amount     Charges   Amount      Charges   Amount
 Ft. Rucker, AL           12,313      $517,880      134         $38,419     116      $29,386      18      $9,033       13        24
    Cairns Field                                     86          10,873      75        8,364      11       2,509       13        23
    Hanchey Field                                    24           9,297      21        8,428       3           869     12         9
    Knox Field                                        8          13,180       6       10,084       2       3,096       25        23
    Lowe Field                                        3           1,933       2         750        1       1,183       33        61
    Shell Field                                      13           3,136      12        1,760       1       1,376        8        44
 OSAA, HQ.
 Ft. Belvoir, VA          31,870    $6,502,998      670        $180,574     563     $159,036     107     $21,538       16        12
    RFC
    Ft. Belvoir, VA                                 521         144,148     431      126,432      90      17,716       17        12
    RFC
    Ft. Hood, TX                                    149          36,426     132       32,604       17      3,822       11        10
 244th Theater
 Aviation Brigade
 Ft. McPherson, GA        17,566    $4,229,864      356        $179,263     199     $116,188     157     $63,075       44        35
    228th Aviation
    Battalion,
    Dobbins, GA                                     356         179,263     199      116,188      157     63,075       44        35
    Total                 61,749 $11,250,742      1,160        $398,256     878     $304,610     282     $93,646       24        24

'Judgment sample percentage does not generalize to universe.
Appendix I. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          39 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      40 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach, II
Thomas S. Bartoszek
Nancee K. Needham
Walter S. Bohinski
Thomas J. McKenna
Michael R. Nova
Jeana N. Roberts
Mayra Y. Alvarado
LaToya Penn
